TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                 Ensuring the Quality Assurance Processes
                   Are Consistently Followed Remains a
                        Significant Challenge for the
                             Volunteer Program



                                     September 15, 2009

                           Reference Number: 2009-40-128




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review
 process and information determined to be restricted from public release has been redacted from
                                          this document.

 Redaction Legend:
 1 = Tax Return/Return Information


 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                DEPARTMENT OF THE TREASURY
                                                      WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                             September 15, 2009


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                        Michael R. Phillips
                              Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – Ensuring the Quality Assurance Processes Are
                              Consistently Followed Remains a Significant Challenge for the
                              Volunteer Program (Audit # 200940002)

 This report presents the results of our review to determine whether taxpayers receive quality
 service, including the accurate preparation of their income tax returns, when visiting Internal
 Revenue Service (IRS) Volunteer Program 1 sites. This audit is a followup to prior Treasury
 Inspector General for Tax Administration reviews and is part of our Fiscal Year 2009 Annual
 Audit Plan. 2

 Impact on the Taxpayer
 The Volunteer Program plays an increasingly important role in achieving the IRS’ goal of
 improving taxpayer service and facilitating participation in the tax system. It provides no-cost
 Federal tax return preparation and electronic filing directed toward underserved segments of
 individual taxpayers, including low-income to moderate-income, elderly, disabled, and
 limited-English-proficient taxpayers. However, the quality assurance process needs some
 improvements and is still not consistently followed. Incorrectly prepared tax returns can increase
 the risk of taxpayers receiving erroneous tax refunds by not receiving credits to which they are
 entitled or receiving additional credits for which they do not qualify.




 1
   Includes the Volunteer Income Tax Assistance and Tax Counseling for the Elderly Programs. During this review,
 the Tax Counseling for the Elderly sites we visited were those sponsored by the AARP (formerly the American
 Association of Retired Persons).
 2
   See Appendix IV for a list of these prior reports.
                      Ensuring the Quality Assurance Processes Are Consistently
                          Followed Remains a Significant Challenge for the
                                          Volunteer Program



Synopsis
The accuracy rates for tax returns prepared at Volunteer Program sites decreased for the first
time in five filing seasons. 3 Of the 49 tax returns prepared for our auditors by Volunteer Income
Tax Assistance and Tax Counseling for the Elderly sites in the 2009 Filing Season,
29 (59 percent) were prepared correctly and 20 (41
percent) were prepared incorrectly. If 17 of the
                                                            Accuracy rates of tax returns prepared
incorrectly prepared tax returns had been filed,                for our auditors decreased from
taxpayers would not have received $4,138 in tax             69 percent in the 2008 Filing Season to
refunds to which they were entitled. Alternatively, if       59 percent in the 2009 Filing Season.
the remaining 3 incorrectly prepared tax returns had
been filed, the IRS would have incorrectly refunded
$4,575.
Since the 2004 Filing Season, we have reported that volunteers do not always follow required
procedures designed to assist in the accurate preparation of tax returns. During the
2009 Filing Season, some volunteers did not consistently use the required intake and interview
process or perform a quality review to ensure that an accurate tax return was prepared. In
addition, the IRS-developed intake sheet was not effective to ensure that taxpayers received the
additional property tax deduction when appropriate.
The IRS is continuing to build on the quality review process, which has evolved into a four-tier
quality review process that includes 1) a 100 Percent Quality Review at the volunteer sites of
every tax return before it is filed, 2) anonymous visits to volunteer sites by IRS employees to
have mock tax returns completed, 3) Quality Statistical Sample (QSS) Reviews, 4 and 4) Post
Reviews of 100 percent of QSS Reviews.
Nevertheless, improvements are needed to better monitor Volunteer Program effectiveness.
Limited testing at seven selected volunteer sites showed that IRS QSS reviewers did not
consistently follow required procedures. Procedures were not consistent from site to site and did
not always conform to applicable guidelines in place to ensure the effectiveness of the tax return
review process.
In addition, a random sample of 43 of the 679 Post Reviews showed that 6 (14 percent) QSS
Review files lacked sufficient taxpayer information to support the reviewers’ conclusions. For
example, missing information included documentation needed to validate the accuracy of the
standard deduction, Rebate Recovery Credit, Charitable Contributions, and income amounts
claimed. This could cause the IRS to report incorrect accuracy rates.


3
 The filing season is the period from January through mid-April when most individual income tax returns are filed.
4
 Starting with the 2009 Filing Season, the IRS began relying on a specially trained cadre of 18 tax specialists to
visit a statistically valid sample of Volunteer Program sites to review a sample of tax returns for accuracy.
                                                                                                                     2
                   Ensuring the Quality Assurance Processes Are Consistently
                       Followed Remains a Significant Challenge for the
                                       Volunteer Program



Recommendations
We recommended that the Commissioner, Wage and Investment Division, as part of the ongoing
efforts to ensure that all tax returns are accurate, 1) begin trending accuracy rates by site and tax
topic to identify patterns and concerns in which to focus education, training, and accountability;
2) ensure that all new tax law topics and questions pertaining to filing status are incorporated into
the IRS intake sheet as well as augment the process for IRS approval of locally developed intake
sheets to ensure completeness and consistency of information gathered from taxpayers during the
tax return preparation process; 3) ensure that the QSS Reviews completed at the volunteer sites
are selected by the Stakeholder Partnership, Education, and Communications function QSS
reviewer, the samples are random, and complete documentation is obtained; and 4) require that
QSS Review training be revised based on the results of the 2009 Filing Season to better ensure
that tax returns are randomly selected and that both QSS and Post Reviews are consistently
supported by sufficient documentation.

Response
The IRS agreed with three of four recommendations and partially agreed with one
recommendation.
1) The IRS partially agreed with this recommendation. The IRS does not agree to trend
   accuracy rates by site, stating it already captures an accuracy rate by tax topic that allows it to
   identify patterns and concerns in which to focus education, training, and accountability.
   Tracking accuracy rate by site would require it to increase the number of reviews to be
   conducted at each site and resources are not available to accomplish this.
2) The IRS agreed with this recommendation, stating it would incorporate new tax law topics
   and questions pertaining to filing status into its intake sheet.
3) The IRS agreed with this recommendation, stating that the current process requires that the
   QSS reviewers randomly select the first available tax return once it has been quality
   reviewed. The IRS will reemphasize this process and the need to obtain complete
   documentation in Fiscal Year 2010 QSS Reviewer Training.
4) The IRS agreed with this recommendation, stating that it will ensure QSS Review training is
   revised based on the results of the 2009 Filing Season. It will also reemphasize this process
   and the need to obtain complete documentation in Fiscal Year 2010 QSS Reviewer Training.
Management’s complete response to the draft report is included as Appendix VIII.




                                                                                                    3
                   Ensuring the Quality Assurance Processes Are Consistently
                       Followed Remains a Significant Challenge for the
                                       Volunteer Program



Office of Audit Comment
In its response, the IRS stated that it reported a 78.5 percent accuracy rate using a statistical
sample. We agree a statistically valid sample of 679 tax returns is more reliable than a
judgmental sample of 49 tax returns. However, as we reported, improvements are needed to the
quality assurance process used to monitor program effectiveness before accuracy rate results can
be considered reliable.
In addition, the IRS stated in its response that the decrease in the accuracy rate from 69 percent
in the 2008 Filing Season to 59 percent in the 2009 Filing Season was based on 9 of
20 incorrectly prepared tax returns that used a scenario that is not a traditional issue for the
volunteers. Also, it is representative of less than 1 percent of the customer base. However, the
scenario included a new tax law topic that was included in the volunteers’ training.
Concerning Recommendation 1, the IRS stated that resources would not allow it to track
accuracy rates by volunteer site. We do not believe additional reviews would be required. The
IRS should capture the accuracy rate by site for the reviews required to achieve a statistical
sample.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services), at (202) 622-5916.




                                                                                                     4
                         Ensuring the Quality Assurance Processes Are Consistently
                             Followed Remains a Significant Challenge for the
                                             Volunteer Program




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 7
          Lack of Accountability for Following Quality Assurance
          Processes Remains a Significant Barrier to Ensuring Accuracy ..................Page 7
                    Recommendations 1 and 2: ..............................................Page 12

          Improvements Are Needed to the Quality Assurance Process
          Used to Monitor Program Effectiveness.......................................................Page 13
                    Recommendations 3 and 4: ..............................................Page 16


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 17
          Appendix II – Major Contributors to This Report ........................................Page 19
          Appendix III – Report Distribution List .......................................................Page 20
          Appendix IV – Treasury Inspector General for Tax Administration
          Audit Reports on the Volunteer Return Preparation Program ......................Page 21
          Appendix V – Cities and States Visited to Have Tax Returns Prepared ......Page 22
          Appendix VI – Results of Tax Returns Incorrectly Prepared
          at Volunteer Program Sites ...........................................................................Page 23
          Appendix VII – General Characteristics of Tax Year 2007 Tax Returns
          Prepared by the Volunteer Program..............................................................Page 24
          Appendix VIII- Management’s Response to the Draft Report .....................Page 26
                    Ensuring the Quality Assurance Processes Are Consistently
                        Followed Remains a Significant Challenge for the
                                        Volunteer Program




                                   Abbreviations

e-filed, e-filing           Electronic Filing
IRS                         Internal Revenue Service
QSS                         Quality Statistical Sample
SPEC                        Stakeholder Partnership, Education, and Communications
TCE                         Tax Counseling for the Elderly
VITA                        Volunteer Income Tax Assistance
                      Ensuring the Quality Assurance Processes Are Consistently
                          Followed Remains a Significant Challenge for the
                                          Volunteer Program




                                             Background

The Volunteer Program plays an increasingly important role in achievement of the Internal
Revenue Service’s (IRS) goal of improving taxpayer service and facilitating participation in the
tax system. It provides no-cost Federal tax return preparation and electronic filing (e-filing)
directed toward underserved segments of individual taxpayers, including low-income to
moderate-income, elderly, disabled, and limited-English-proficient taxpayers. It includes sites
operated in partnership with the military and with various
community-based organizations. 1 The Volunteer Program is
                                                                       Volunteers play an
comprised of the Volunteer Income Tax Assistance (VITA)          increasingly important role
Program, the Tax Counseling for the Elderly (TCE)                 in helping the IRS achieve
Program, and the VITA Grant Program.                                 its goal of improving
                                                                                taxpayer service and
The VITA Program was originated in 1969 due to                               facilitating participation in
enactment of the Tax Reform Act of 1969 2 and an increased                          the tax system.
emphasis on taxpayer education programs. The IRS has
placed continual emphasis on expanding the VITA Program
through increased recruitment of social service, nonprofit,
corporate, financial, educational, and government
organizations; involvement of the military on a national
level; and expansion of assistance provided to the
limited-English-proficient community.
The TCE Program began with the Revenue Act of 1978 3 that authorized the IRS to enter into
agreements with private or nongovernmental, public, nonprofit agencies and organizations to
provide training and technical assistance to volunteers who provide free tax counseling and
assistance to elderly individuals in the preparation of their Federal income tax returns. The law
authorizes an appropriation of special funds, in the form of grants, to provide tax assistance to
persons age 60 and older. The IRS receives the funds as a line item in the budget appropriation.
The total funds are distributed to the sponsors 4 for their expenses.
The 2009 Filing Season 5 was the first filing season that the IRS granted funds for the VITA
Grant Program. Under the VITA Grant Program, 111 grantees were awarded $8 million in
matching grants to extend services to underserved populations in hard-to-reach areas, both urban


1
  Some community-based Volunteer Program sites are located in buildings occupied by one or more IRS offices.
2
  Pub. L. No. 91-172, 83 Stat. 487 (codified as amended in scattered sections of 26 U.S.C. and 42 U.S.C.).
3
  Pub. L. No. 95-600, 92 Stat. 2810.
4
  A sponsor would be an entity similar to the AARP (formerly the American Association of Retired Persons).
5
  The filing season is the period from January through mid-April when most individual income tax returns are filed.
                                                                                                             Page 1
                            Ensuring the Quality Assurance Processes Are Consistently
                                Followed Remains a Significant Challenge for the
                                                Volunteer Program



    and nonurban. The grants are to be used to increase the capacity to file tax returns electronically
    and enhance training of volunteers at VITA sites.
    For the 2008 Filing Season, over 78,000 volunteers staffed a total of 11,840 Volunteer Program
    sites. Volunteers prepared approximately 1.58 million individual income tax returns at
    VITA sites 6 and over 1.89 million at TCE sites. Figure 1 provides key production data for the
    2006 through 2008 Filing Seasons.
                          Figure 1: Key VITA/TCE Site Production Data for the
                                      2006 - 2008 Filing Seasons

                                        2006                  2007             Percent          2008             Percent
                                   Filing Season         Filing Season         Change      Filing Season         Change
VITA
Paper                                      145,991              146,383          0.27%            249,368         70.35%
E-Filed                                    967,800            1,077,843         11.37%          1,339,023         24.23%
Total VITA returns                       1,113,791            1,224,226          9.92%          1,588,391         29.75%
Total VITA Sites                             4,540                4,474         -1.45%              4,991         11.56%
Total VITA Volunteers                       35,664               43,415         21.73%             46,610          7.36%
TCE
Paper                                      244,129              253,632          3.89%            327,664         29.19%
E-Filed                                    905,682            1,144,664         26.39%          1,563,879         36.62%
Total TCE returns                        1,149,811            1,398,296         21.61%          1,891,543         35.27%
Number of Sites                              7,822                7,448         -4.78%              6,849         -8.04%
Number of Volunteers                        33,121               33,204          0.25%             32,233         -2.92%
TOTALS
Total Number of Volunteers                  68,785               76,619         11.39%              78,843             2.90%
Total VITA and TCE Sites                    12,362               11,922         -3.56%              11,840            -0.69%
Total VITA and TCE
Returns                                  2,263,602            2,622,522         15.86%          3,479,934         32.69%
Total Returns                            2,263,602            2,622,522         15.86%          3,479,934         32.69%
Source: IRS management information system containing 2006 through 2008 Filing Season information.

    During the 2008 Filing Season, taxpayer demand for volunteer tax services increased almost
    33 percent over the approximately 2.6 million volunteer-prepared tax returns filed during the
    2007 Filing Season. The key factor of this increased activity was the passage of the Economic
    Stimulus Act of 2008. 7 The IRS reached out to taxpayers with special emphasis on Social
    Security and Veterans Administration benefits recipients who had no tax filing requirements.


    6
        Throughout the remainder of this report, all references to the VITA Program include the VITA Grant Program.
    7
        Pub. L. No. 110-185, 122 Stat. 613.
                                                                                                               Page 2
                      Ensuring the Quality Assurance Processes Are Consistently
                          Followed Remains a Significant Challenge for the
                                          Volunteer Program



This audit included an assessment of tax returns prepared at community-based VITA sites and
TCE/AARP-sponsored 8 sites. Figure 2 provides a breakdown of the Volunteer Program and the
percentage of tax returns prepared during the 2008 Filing Season.
                        Figure 2: Percent of Tax Returns Prepared
              at the Volunteer Program Sites During the 2008 Filing Season



                                                                                     TCE/
                                                 TCE/AARP                         Non-AARP
                                                  52.62%                            2.11%


                    Other 1.00%


                                                                                   Military/Vita
                                                                                     8.69%

                                       VITA and                      Co-Located
                                       VITA Grant                       VITA
                                        34.94%                         0.70%

              Source: Our analysis of data retrieved from the IRS management information system
              containing Tax Year 2007 filing information. Due to rounding, percentages will not
              add to 100 percent. Other = At the time of our data analysis, some data had invalid site codes
              that were categorized as “Other.”

The IRS Stakeholder Partnership, Education, and Communications (SPEC) function is
responsible for providing oversight for the Volunteer Program, which includes determining
policies and procedures, developing products and training material, and monitoring and
managing Volunteer Program activity. The SPEC function’s concept of operations includes
looking for opportunities to assist third parties to help taxpayers understand and meet their tax
obligations by promoting collaboration among tax practitioners, commercial preparers, and
community-based partners to support the volunteer return preparation program.




8
 Throughout the remainder of this report, the abbreviation “TCE” is used in reference to TCE sites sponsored by the
AARP.
                                                                                                           Page 3
                         Ensuring the Quality Assurance Processes Are Consistently
                             Followed Remains a Significant Challenge for the
                                             Volunteer Program



Tax scenarios used by auditors reflected characteristics of taxpayers who seek
assistance from the Volunteer Program
We designed four scenarios for auditors to use as they posed as taxpayers having tax returns
prepared by volunteers. The scenarios were developed to use characteristics of taxpayers who
visit Volunteer Program sites to have a tax return prepared and tax law topics that assessed the
volunteers’ use of the tools the SPEC function created to ensure that accurate tax returns are
prepared.
       •   Two scenarios included tax topics related to five of the six credits taxpayers most often
           claimed on the Tax Year 2007 returns prepared by community-based VITA and TCE
           sites. The dollar amounts of these 5 credits represented about 49 percent (approximately
           $981 million) of the approximately $2 billion in refunds shown on the tax returns for
           these taxpayers. Taxpayers whose tax returns included 1 or more of the 5 credits in our
           scenarios accounted for 677,413 (23 percent) of the 2,920,754 Tax Year 2007 tax returns
           prepared. Scenarios 1 and 2 have been used, with minimal revisions, since our first audit
           of the Volunteer Program in the 2004 Filing Season. 9
       •   Two scenarios were added for the 2009 Filing Season review to assess volunteers’
           handling of newly enacted tax laws and, at the request of the IRS, to assess the accuracy
           of volunteer-prepared tax returns that do not include dependent issues.
Scenario 1 – The taxpayer was single, had never been married, and lived with his or her sister.
The taxpayer had one child, age 7, who lived with the taxpayer in the home of the taxpayer’s
sister during school vacations, including the months of June, July, and August (summer). The
child lived with the other parent during the school year. Wages reported on the 2008 Wage and
Tax Statement (Form W-2) totaled $16,435. The taxpayer received a 2008 Interest Income
(Form 1099-INT) totaling $26.35. The taxpayer attended college part time, and the cost was
paid by the taxpayer’s sister.
An accurately prepared tax return would result in the taxpayer receiving a refund of $598. The
tax return preparer would have correctly determined that the taxpayer’s filing status was Single.
Because the taxpayer did not provide more than one-half of the support for the child, he or she
could not claim the child as a dependent for Child Tax Credit purposes. The Earned Income Tax
Credit would not be available to the taxpayer because earned income exceeded the maximum
allowable amount and because the child did not live with the taxpayer for more than one-half of
the year. The taxpayer would qualify for the Recovery Rebate Credit of $600 because no
economic stimulus payment was received in 2008. The taxpayer did not file a Tax Year 2007
return since there was no income to report.




9
    See Appendix IV for a list of our prior reports.
                                                                                               Page 4
                  Ensuring the Quality Assurance Processes Are Consistently
                      Followed Remains a Significant Challenge for the
                                      Volunteer Program



Scenario 2 – The taxpayer was divorced and lived with his or her 8-year-old child. The taxpayer
had the same job working as a clerk throughout Calendar Year 2008. Wages reported on the
2008 Form W-2 totaled $28,732. The taxpayer was paid bi-weekly and contributed to a
401(k) retirement plan. The taxpayer received a 2008 Form 1099-INT totaling $42.13, received
$400 a month for child support, had dependent care expenses totaling $1,352, and contributed
$1,253 to a 401(k) retirement plan. The taxpayer received $900, the maximum amount of
economic stimulus payment.
An accurately prepared tax return would result in the taxpayer receiving a refund of $2,338. The
tax return preparer would have correctly determined that the taxpayer’s filing status was Head of
Household and the dependency exemption could be claimed. In addition, the taxpayer qualified
for an Earned Income Tax Credit of $834, a Child Tax Credit of $990 and an Additional Child
Tax Credit of $10 in a refundable credit, a Child and Dependent Care Credit of $379, and a
Retirement Savings Contributions Credit of $125.
Scenario 3 – The taxpayer was widowed, lived alone, retired 2 years ago, and began receiving
an annual pension totaling $4,092 in Calendar Year 2008. The taxpayer began receiving Social
Security Retirement payments during Calendar Year 2008, the month after reaching age 62, and
received a total of $3,364 for Calendar Year 2008. In addition, the taxpayer received a 2008
Form 1099-INT totaling $236.08. The taxpayer did not receive an economic stimulus payment
because his or her income did not qualify. Due to the IRS’ request for an assessment specifically
of the TCE Program’s preparation of tax returns involving retirement income, auditors limited
their use of this scenario to TCE sites.
A correctly prepared tax return would result in the taxpayer receiving a refund of $300. The
preparer would have correctly determined that the taxpayer’s filing status was Single. The
preparer would have realized this taxpayer had no filing requirement due to the level of income.
However, the taxpayer would be entitled to receive the Recovery Rebate Credit and would need
to file a tax return for that purpose.
Scenario 4 – The taxpayer was single, no children, never married, and owned and lived in a
home without a mortgage. The home was inherited from a parent. The taxpayer worked part
time in the evenings as a convenience store clerk. Wages reported on the 2008 Form W-2 totaled
$10,756, with $608.84 Federal income tax withheld, $155.96 Medicare tax, and $164.18 State
income tax withheld. The taxpayer also received $666.87 in Social Security Retirement income.
In addition, the taxpayer received a 2008 Form 1099-INT totaling $12.02 and paid $984 in
county real estate property taxes based on an assessment notice received in August 2008. The
taxpayer received a $300 economic stimulus payment.
A correctly prepared tax return would result in the taxpayer receiving a refund of $639. The
preparer would have correctly determined that the taxpayer’s filing status was Single. The
taxpayer would receive an Earned Income Tax Credit in the amount of $161 and receive the


                                                                                          Page 5
                  Ensuring the Quality Assurance Processes Are Consistently
                      Followed Remains a Significant Challenge for the
                                      Volunteer Program



benefit of a $500 increase in the standard deduction due to real estate taxes paid. No Recovery
Rebate Credit would be due.
This review was performed at the IRS Customer Assistance, Relationships, and Education
function in the Wage and Investment Division Headquarters in Atlanta, Georgia, during the
period December 2008 through May 2009. In addition, from February through April 2009,
Treasury Inspector General for Tax Administration auditors performed 51 anonymous visits
(called shopping) and had 49 tax returns prepared at 49 judgmentally selected Volunteer
Program sites located in 15 States. Appendix V provides a list of the 15 States and the specific
cities where the sites were located. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




                                                                                            Page 6
                                               Ensuring the Quality Assurance Processes Are Consistently
                                                   Followed Remains a Significant Challenge for the
                                                                   Volunteer Program




                                                                Results of Review

Lack of Accountability for Following Quality Assurance Processes
Remains a Significant Barrier to Ensuring Accuracy
The accuracy rates for tax returns prepared at Volunteer Program sites decreased for the first
time in five filing seasons. Figure 3 shows that accuracy rates of tax returns prepared for our
auditors for the 2004 through 2009 Filing Seasons.
                                                    Figure 3: Overall Tax Return Accuracy Rates
                                                         for the 2004 - 2009 Filing Seasons
             Percentage of Total Tax Returns




                                               80
                                               70
                  Prepared Accurately




                                               60                                       56        69         59
                                               50
                                                                            39
                                               40                 34
                                               30
                                               20
                                               10
                                                        0
                                                0
                                                       2004       2005      2006      2007      2008      2009
                                                       Filing     Filing    Filing    Filing    Filing    Filing
                                                      Season     Season    Season    Season    Season    Season

               Source: Tax returns prepared for our auditors by volunteers for the 2004 through 2009 Filing
               Seasons.

Since the 2004 Filing Season, we have reported that volunteers do not always follow required
procedures designed to assist in the accurate preparation of tax returns. During the 2009 Filing
Season, some volunteers did not consistently use the required intake and interview process,
including completion of the IRS Intake and Interview Sheet (Form 13614) or another
IRS-approved intake sheet, or perform a quality review to ensure that an accurate tax return was
prepared.
Of the 49 tax returns we had prepared for the 2009 Filing Season, 29 (59 percent) were prepared
accurately and 20 (41 percent) were prepared incorrectly. Figure 4 shows the overall accuracy
rates by scenario.


                                                                                                                   Page 7
                        Ensuring the Quality Assurance Processes Are Consistently
                            Followed Remains a Significant Challenge for the
                                            Volunteer Program



                            Figure 4: Overall Tax Return Accuracy Rates
                                      for the 2009 Filing Season

                                                                 Number of Tax
                                                               Returns Prepared           Accuracy
                          Tax Scenario Used                    Using the Scenario           Rate
                  Scenario 1                                           13                   69%
                  Scenario 2                                           13                   62%
                  Accuracy Rate for Scenarios 1 and 2                  26                   65%
                  Scenario 3                                             11                  82%
                  Accuracy Rate for Scenarios 1-3                        37                  70%
                  Scenario 4                                             12                  25%
                  Total Accuracy                                         49                  59%
                 Source: Tax returns prepared for our auditors by volunteers for the 2009 Filing Season.

Scenarios 1 and 2 have been used, with some slight variations, to test tax return accuracy since
the 2004 Filing Season, when the Treasury Inspector General for Tax Administration first began
testing the accuracy. Scenario 3 added the tax topic of retirement income. Scenario 4 added the
tax topic of real estate taxes.
Specific issues causing errors included:
       •   In 7 (78 percent) of the 9 instances in which the auditors presented Scenarios 1 and 2 and
           the return was incorrectly prepared, the preparer overlooked what was provided by
           taxpayers on the intake sheet. 10 Errors on tax returns included volunteers incorrectly
           determining the amounts of the Child Tax Credit, the Child and Dependent Care Credit,
           and/or the Retirement Savers Contributions Credit. Also, for seven of the incorrect tax
           returns, there was either no required quality review performed or, for example, the quality
           reviewer overlooked information on the intake sheet when validating information on the
           tax return.
       •   In 11 (100 percent) of the 11 instances in which the auditors presented Scenario 3–the
           retirement income scenario–volunteers correctly determined the taxability of the
           taxpayer’s income. However, at one site, no tax return was prepared because the
           volunteer did not identify that a tax return needed to be filed to claim a $300 Recovery
           Rebate Credit. There was no quality review of the volunteer’s decision not to prepare a
           return. At another site, a tax return was prepared but the Recovery Rebate Credit was not
           claimed.



10
     The intake sheets are developed and provided by the IRS or by the volunteer organizations.
                                                                                                           Page 8
                  Ensuring the Quality Assurance Processes Are Consistently
                      Followed Remains a Significant Challenge for the
                                      Volunteer Program



   •   In 9 (75 percent) of the 12 instances in which the auditors presented Scenario 4,
       volunteers did not include real estate taxes as an additional standard deduction. This was
       the only error for these tax returns. For Tax Year 2008, homeowners had the option to
       claim an additional standard deduction for property tax if they do not itemize. The
       IRS-developed intake sheet was not effective to ensure that entitled taxpayers received
       the additional deduction. The IRS intake sheet does not ask whether the taxpayer paid
       property taxes. The SPEC function alerted volunteers on February 15, 2009, to remind
       them of this new law.
SPEC function management stated that late legislation on the property tax deduction prevented
them from updating the intake sheet with this issue. The IRS intake sheets are printed in
mid-summer in order to have them available for September training sessions.
The SPEC function also conducted 65 shopping visits during the 2009 Filing Season as part
of its quality review program and raised similar concerns regarding volunteer adherence to
quality requirements
During the 2009 Filing Season, the IRS performed 65 shopping reviews that showed
44 (68 percent) tax returns were prepared accurately, compared to a 75 percent accuracy rate for
the 85 tax returns volunteers prepared for SPEC function shoppers during the 2008 Filing
Season. Observations from the 2009 Filing Season shopping visits showed that:
   •   25 percent of the sites did not perform the required quality review of the tax returns.
   •   68 percent of the sites did not effectively use the required intake and interview sheet
       during tax return preparation.

Significant challenges exist to ensure that volunteers consistently adhere to
quality assurance processes
Since Fiscal Year 2004, the SPEC function and its volunteer organization/partners have worked
to educate and train volunteers about the benefits of following quality assurance processes during
the preparation of every tax return. For every tax return prepared, volunteers are required to
ensure that the taxpayer completes an IRS-approved intake sheet, that there is an interview
process to confirm a complete and accurate understanding of the taxpayer information, and that
each tax return is subjected to a 100 percent Quality Review.




                                                                                             Page 9
                     Ensuring the Quality Assurance Processes Are Consistently
                         Followed Remains a Significant Challenge for the
                                         Volunteer Program



Both SPEC function and Treasury Inspector General for Tax Administration employees believe
that many volunteers’ desire to complete tax returns more quickly takes priority over the need to
follow quality review requirements. Also, some volunteers believe that because they are
experienced, they do not always need to follow the quality review processes.
SPEC function guidelines state that if a Volunteer Program site does not comply with a particular
aspect of the quality review process, it works with the partner and the site to assist them in
becoming compliant as soon as possible. Any remedy offered should provide the assistance and
support necessary to bring the site into compliance with the Quality Site Requirements. This
might include discussions, counseling, and/or mentoring assistance with the site within a
reasonable period. Withdrawing IRS support from a site is the last resort per current IRS
guidelines. 11

The Government and taxpayers are adversely affected by incorrect tax returns
Incorrectly prepared tax returns can increase the risk of taxpayers not receiving credits they are
entitled to or receiving additional credits for which they do not qualify. If 17 of the
20 incorrectly prepared tax returns had been filed, taxpayers would not have received $4,138 in
tax refunds to which they were entitled. Specific credits not received included the Child Tax
Credit and Additional Child Tax Credit, Child and Dependent Care Credit, Earned Income Tax
Credit, Recovery Rebate Credit, Retirement Savings Contributions Credit, and additional
standard deduction amount. Alternatively, if the remaining 3 incorrectly prepared tax returns
had been filed, the IRS would have refunded $4,575 incorrectly. Overstated refunds resulted
from taxpayers incorrectly receiving the Child Tax Credit and Additional Child Tax Credit,
dependency exemption, Child and Dependent Care Credit, and/or Earned Income Tax Credit. 12
This does not take into account the many years of difficulty taxpayers may face once the IRS
determines that they claimed, for example, an incorrect amount of Earned Income Tax Credit.
Partner organizations and their volunteers play a significant role in the IRS’ tax return
preparation program. This presents significant challenges to the IRS. The strengths of the
Volunteer Program lie with the partner organizations and their volunteers. Although the IRS has
a commitment to holding them accountable for following the direction, guidelines, and required
processes that have been put in place, this commitment should be at the forefront to ensure
Volunteer Program success.




11
   IRS support includes software, computers, printers, financial assistance, grants, and VITA and TCE Program logo
references.
12
   Appendix VI presents details of these results.
                                                                                                         Page 11
                        Ensuring the Quality Assurance Processes Are Consistently
                            Followed Remains a Significant Challenge for the
                                            Volunteer Program



Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 1: As part of the ongoing efforts to ensure that all tax returns are accurate,
begin trending accuracy rates by site and tax topic to identify patterns and concerns in which to
focus education, training, and accountability.
           Management’s Response: The IRS agreed in part with this recommendation. An
           accuracy rate is captured by tax topic, which allows the IRS to identify patterns and
           concerns in which to focus education, training, and accountability. When tax law or
           process errors are identified at the sites, Volunteer Quality Alerts or Quality Site
           Requirement alerts are issued to inform partners of recurring issues. For example, some
           preparers were overlooking the additional standard deduction for taxpayers who did not
           have enough to itemize, but could claim their State and local real estate property taxes.
           As soon as this was known, a Volunteer Quality Alert was issued as a reminder to
           volunteers.
           The IRS did not agree to trend accuracy rates by site. It stated that doing this would
           increase the number of reviews to be conducted at each site. Resources are not available
           to accomplish this, particularly considering there are more than 12,000 volunteer sites.
           Office of Audit Comment: The IRS stated that resources would not allow it to track
           accuracy rates by volunteer site. However, we do not believe additional reviews would
           be required. The IRS should capture the accuracy rate by site for the reviews required to
           achieve a statistical sample.
Recommendation 2: Ensure that all new tax law topics and questions pertaining to filing
status are incorporated into the IRS intake sheet. In addition, the process for IRS approval of
locally developed intake sheets should be augmented to better ensure completeness and
consistency of information gathered from taxpayers during the tax return preparation process.
           Management’s Response: The IRS agreed with this recommendation. The IRS will
           incorporate new tax law topics and questions pertaining to filing status into its intake
           sheet. The Tax Year 2009 IRS Intake Sheet was revised to include the provisions of the
           American Recovery and Reinvestment Act. 13 However, the purpose of the newly
           designed Intake/Interview and Quality Review Sheet (Form 13614-C) is not to
           incorporate every question that should be addressed with the taxpayer but rather to trigger
           the volunteer preparer’s conversation with the taxpayer. This requires them to use the
           decision trees located in Publication 4012, Publication 17, or the interview tools in the
           software provided.


13
     Pub. L. No. 111-5, 123 Stat. 115.
                                                                                              Page 12
                      Ensuring the Quality Assurance Processes Are Consistently
                          Followed Remains a Significant Challenge for the
                                          Volunteer Program



         In addition, the IRS agreed to augment the process for approval of locally developed
         intake sheets. The current process for locally developed intake sheets requires that local
         Territory management ensure that locally developed forms have the same questions as the
         Form 13614-C.

Improvements Are Needed to the Quality Assurance Process Used to
Monitor Program Effectiveness
Limited testing at seven selected volunteer sites showed that IRS quality reviewers did not
consistently follow required procedures. Procedures were not consistent from site to site and
were not always consistent with applicable guidelines in place to ensure the effectiveness of the
tax return review process. In addition, the post-review quality assurance process did not
effectively identify and address errors that affect the credibility of the overall accuracy rate.
The IRS is continuing to build on the quality review process, which has evolved into a four-tier
quality review process that includes 1) a 100 Percent Quality Review at the volunteer sites of
every tax return before it is filed, 2) anonymous visits to volunteer sites by SPEC function
employees to have tax returns completed, 3) Quality Statistical Sample (QSS) Reviews, 14 and
4) Post Reviews of 100 percent of QSS Reviews.
The SPEC function conducted a sample of 679 QSS Reviews during the 2009 Filing Season and
determined that 530 (78 percent) of the tax returns were correct. During a QSS Review, cadre
members randomly select for review three tax returns that have not yet been signed by the
taxpayers. The IRS reviewer uses the Quality Return Review Sheet (Form 6729C) to check the
prepared tax return for accuracy with the completed intake and interview sheet, the taxpayer’s
supporting documentation, and the completed quality review checksheet. QSS reviewer
instructions include the following:

1. Enter the site and ask for the site coordinator; explain site and return review process and address
   any questions or concerns.
2. Ask the site coordinator for next available tax return.
3. Explain return review purpose to the taxpayer and ask the taxpayer for permission to review his/her
   return and provide taxpayer with Return Review Preparation – Taxpayer (Publication 4675).
   Note: If the intake/interview sheet is missing, not completed, or unapproved, hold on to completed
   tax return and secure the completed approved intake/interview sheet from site coordinator. A
   Statistics of Income Office Review cannot be conducted using an unapproved intake sheet.
4. Conduct the review of the tax return.
5. If no errors are identified, give the tax return to site coordinator for immediate processing.



14
  Starting with the 2009 Filing Season, the IRS began relying on a specially trained cadre of 18 tax specialists to
visit a statistically valid sample of Volunteer Program sites to review a sample of tax returns for accuracy.
                                                                                                             Page 13
                    Ensuring the Quality Assurance Processes Are Consistently
                        Followed Remains a Significant Challenge for the
                                        Volunteer Program


6. If there is a difference on the information reported on the return than what is marked on the approved
   intake sheet, the return preparer or reviewer should make a note on the intake sheet. If they did not,
   the QSS reviewer must question the discrepancy. The QSS reviewer must ask the preparer/quality
   reviewer to correct or make a note on the intake sheet. The QSS reviewer will note and comment on
   what line items on the tax return and intake sheet were inconsistent. The history sheet will also be
   noted that there was a discrepancy between the two documents.
7. If errors are identified, advise the site coordinator to make the appropriate changes to the tax return
   and wait for the corrected return to ensure no other credits were identified once the error was
   corrected.
8. Scan the following on each tax return: completed tax return, corrected tax return (if applicable),
   consent form, Form 6729C, intake sheet, Quality Review sheet, and all supporting documents.
9. Sanitize and redact all documents.


QSS Reviews are not anonymous and may influence tax preparation sites under
review
Unlike when auditors pose as a taxpayer and visit a volunteer tax preparation site to have a tax
return prepared, during the QSS Review, volunteers are aware that IRS staff are onsite to review
the tax returns they are preparing. Knowing the reviewer is onsite could lead volunteers to be
more quality conscious and more apt to adhere to quality processes than they would have been
otherwise. Consequently, the QSS Reviewer may not be obtaining a reliable perspective of the
tax return preparation operations.
At one of seven sites, the QSS Reviewer determined which cases were in quality review and
prior to completion of the site’s quality review of the tax return, the reviewer informed the
taxpayer and the volunteer that the return was next to be reviewed. In addition, the IRS’ results
of review, for example, showed that after the first return was reviewed and the IRS had pointed
out a lack of the required quality review of the tax return or an incomplete intake sheet, the
second and third tax returns reviewed generally were free of the issues raised by the IRS.
This will remain a challenge since the IRS would need significant resources to ensure that the
reviewers are anonymous. However, it is only one of four reviews in the four-tier quality review
process.

QSS reviewers did not ensure that the selection of tax returns for review was
random
The methods followed by QSS reviewers to select tax returns for review at each site were not
consistent and generally did not ensure that each tax return was randomly selected. At five of
seven sites visited, reviewers did not effectively control the return selection process. At another
site visited, there was only one volunteer preparing tax returns, but the reviewer ensured no
taxpayers were allowed to leave without being asked to participate in the return review process.
One reviewer closely monitored the return preparation process to ensure the integrity of the
process.

                                                                                                  Page 14
                   Ensuring the Quality Assurance Processes Are Consistently
                       Followed Remains a Significant Challenge for the
                                       Volunteer Program



Factors identified that could call into question the validity of the results include instances where:
   •   The QSS reviewer became involved in helping the site with the preparation of a tax
       return.
   •   The QSS reviewer reviewed a tax return for accuracy even though both spouses were not
       present to review and sign the tax return.
   •   A tax return was excluded from review because it was not electronically prepared (i.e., a
       paper tax return).
   •   Taxpayers without filing requirements because of income levels were excluded from the
       review process.

QSS Reviews were not supported by sufficient taxpayer information and source
documents were not consistently used to validate the accuracy of the tax return
information
QSS reviewer assessments were not always supported by a complete review of taxpayer
information.
   •   At one of seven sites, the site was using a locally developed intake sheet and the reviewer
       had not ensured that the IRS had approved the intake sheet.
   •   At four of seven sites, reviewers accepted incomplete intake sheets. None of the
       reviewers verified that the taxpayer completed the intake sheet. Shopping visits have
       shown that volunteers will complete the intake questions and make assumptions rather
       than ask the taxpayer (e.g., the number of months the child lived with the taxpayer),
       which is critical in determining the filing status and number of exemptions allowed.

Post reviewers considered tax returns to be correct even though they did not
have sufficient information
A random sample of 43 of the 679 Post Reviews showed that 6 (14 percent) QSS Review files
lacked sufficient taxpayer information to support the reviewers’ conclusions. For example,
missing information included documentation needed to validate the accuracy of the standard
deduction, Recovery Rebate Credit, Charitable Contributions, and income amounts claimed.
The Post Reviews should rely on source documents, including a complete intake and interview
sheet and all Forms W-2 and 1099. Per SPEC function guidelines, tax returns are to be
considered inaccurately prepared if the file received from the QSS reviewers lacks sufficient
information for an effective independent validation of the tax return accuracy.
An incorrect assessment of the Volunteer Program quality of service can cause the IRS to
misdirect its efforts aimed at identifying volunteer tax preparation process deficiencies and
steering strategic activities, including volunteer training. It could also cause the IRS to report
                                                                                             Page 15
                   Ensuring the Quality Assurance Processes Are Consistently
                       Followed Remains a Significant Challenge for the
                                       Volunteer Program



incorrect accuracy rates. Ultimately, it is the quality of volunteer-prepared tax returns that is at
risk.

Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 3: Ensure that the QSS Reviews completed at the volunteer sites are
selected by the SPEC function QSS reviewer, the samples are random, and complete
documentation is obtained.
       Management’s Response: The IRS agreed with this recommendation. The current
       process requires that the QSS reviewers select the first available return once it has been
       quality reviewed. The selection is random. The IRS will reemphasize this process and
       the need to obtain complete documentation in Fiscal Year 2010 QSS Reviewer Training.
Recommendation 4: Require that QSS Review training be revised based on the results of the
2009 Filing Season to better ensure that tax returns are randomly selected and that both QSS and
Post Reviews are consistently supported by sufficient documentation.
       Management’s Response: The IRS agreed with this recommendation. It will ensure
       QSS Review training is revised based on the results of the 2009 Filing Season. The IRS
       will also reemphasize this process and the need to obtain complete documentation in
       Fiscal Year 2010 QSS Reviewer Training.




                                                                                              Page 16
                      Ensuring the Quality Assurance Processes Are Consistently
                          Followed Remains a Significant Challenge for the
                                          Volunteer Program



                                                                                                  Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether taxpayers receive quality service,
including the accurate preparation of their income tax returns, when visiting IRS Volunteer
Program 1 sites. Data used in the various figures were provided for perspective only and were not
audited. To accomplish the objective, we:
I.      Determined whether the VITA and TCE sites were accurately preparing individual
        income tax returns based on facts provided by the taxpayer. We selected a judgmental
        sample of 51 VITA/Co-Located VITA and TCE/AARP sites nationwide and attempted to
        have tax returns prepared. This resulted in only 49 completed tax returns–one tax return
        could not be prepared at an AARP site because the site had reached its capacity before
        the employee arrived, and one tax return was eliminated because the employee did not
        provide the required information to the volunteer so that an accurate tax return could be
        prepared.
        Site selection was based on the volume of tax returns prepared by the sites, auditor
        resources, and the sites’ proximity to major cities. The population of Volunteer Program
        sites is not fixed because sites open and close throughout the filing season. 2 Therefore,
        we could not determine the total population of Volunteer Program sites and could not
        select a statistical sample. 3
II.     Assessed the effectiveness of the SPEC function’s quality review process to evaluate and
        monitor the overall accuracy of tax returns prepared at Volunteer Program sites.
        A. Obtained and provided the Volunteer Program Return Review statistical sampling
           plan to an independent statistician to review for soundness.
        B. Accompanied and observed QSS reviewers as they completed the tax return review
           process to ascertain the level of reviewer compliance with policy and procedures in


1
  Includes the VITA and TCE Programs. During this review, the TCE sites we visited were those sponsored by the
AARP (formerly the American Association of Retired Persons).
2
  The filing season is the period from January through mid-April when most individual income tax returns are filed.
3
  See Appendix V for a list of cities and States selected.




                                                                                                          Page 17
          Ensuring the Quality Assurance Processes Are Consistently
              Followed Remains a Significant Challenge for the
                              Volunteer Program



   place to ensure reliability of results. A total of seven observation visits were
   completed. The seven were selected based on the SPEC function’s review schedule
   and the auditor’s availability.
C. Selected a random sample of 43 Post Reviews to assess for completeness and
   accuracy. The sample was selected from a population of 679 tax returns. The
   random selection was completed electronically using computer software.




                                                                                 Page 18
                 Ensuring the Quality Assurance Processes Are Consistently
                     Followed Remains a Significant Challenge for the
                                     Volunteer Program



                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Augusta R. Cook, Director
Lena Dietles, Audit Manager
Robert Howes, Lead Auditor
Pamela DeSimone, Senior Auditor
Tracy Harper, Senior Auditor
Jerome Antoine, Auditor
Kathy Coote, Auditor
Mary Keyes, Auditor




                                                                                    Page 19
                 Ensuring the Quality Assurance Processes Are Consistently
                     Followed Remains a Significant Challenge for the
                                     Volunteer Program



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Director, Stakeholder Partnership, Education, and Communications, Wage and Investment
Division SE:W:CAR:SPEC
Senior Operations Advisor, Wage and Investment Division SE:W:S
Chief, Program Evaluation and Improvement, Wage and Investment Division SE:W:S:PRA:PEI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Wage and Investment Division SE:W:S:PRA:PEI




                                                                                  Page 20
                 Ensuring the Quality Assurance Processes Are Consistently
                     Followed Remains a Significant Challenge for the
                                     Volunteer Program



                                                                            Appendix IV

  Treasury Inspector General for Tax Administration
       Audit Reports on the Volunteer Return
                Preparation Program

Improvements Are Needed to Ensure Tax Returns Are Prepared Correctly at Internal Revenue
Service Volunteer Income Tax Assistance Sites (Reference Number 2004-40-154, dated
August 31, 2004).
Significant Improvements Have Been Made in the Oversight of the Volunteer Income Tax
Assistance Program, but Continued Effort Is Needed to Ensure the Accuracy of Services
Provided (Reference Number 2006-40-004, dated November 4, 2005).
Oversight and Accuracy of Tax Returns Continue to Be Problems for the Volunteer Income Tax
Assistance Program (Reference Number 2006-40-125, dated August 31, 2006).
Accuracy of Volunteer Tax Returns Is Improving, but Procedures Are Often Not Followed
(Reference Number 2007-40-137, dated August 29, 2007).
Accuracy of Volunteer Tax Returns Continues to Improve, but Better Controls Are Needed to
Ensure Consistent Application of Procedures and Processes (Reference Number 2008-40-177,
dated September 18, 2008).




                                                                                        Page 21
         Ensuring the Quality Assurance Processes Are Consistently
             Followed Remains a Significant Challenge for the
                             Volunteer Program



                                                                 Appendix V

               Cities and States Visited
            to Have Tax Returns Prepared

•   Phoenix, Arizona            •   Minneapolis, Minnesota
•   Adelanto, California        •   Carolina Beach, North Carolina
•   Chula Vista, California     •   Wilmington, North Carolina
•   Fontana, California         •   New York, New York
•   San Francisco, California   •   Cincinnati, Ohio
•   Vernon, Connecticut         •   Tulsa, Oklahoma
•   Westport, Connecticut       •   Philadelphia, Pennsylvania
•   Windsor, Connecticut        •   Houston, Texas
•   Miami, Florida              •   New Braunfels, Texas
•   Tucker, Georgia             •   San Antonio, Texas
•   Chicago, Illinois           •   Seattle, Washington
•   Boston, Massachusetts




                                                                      Page 22
                       Ensuring the Quality Assurance Processes Are Consistently
                           Followed Remains a Significant Challenge for the
                                           Volunteer Program



                                                                                    Appendix VI

           Results of Tax Returns Incorrectly Prepared
                   at Volunteer Program Sites

                                              Volunteer Site     Correct      Amount of    Amount of
                                 Type of        Refund or       Refund or    Understated   Overstated
  Volunteer Sites Visited         Site         Balance Due     Balance Due     Refund       Refund
Adelanto, California               TCE                   $0          $300        -$300
Boston, Massachusetts              TCE                   -$2         $598        -$600
Chicago, Illinois                 VITA                $2,213        $2,338       -$125
Fontana, California                TCE                   $0          $300        -$300
Miami, Florida                     TCE                 $603          $598                       $5
Miami, Florida                    VITA                $1,834        $2,338       -$504
Minneapolis, Minnesota            VITA                 $589          $639         -$50
Minneapolis, Minnesota            VITA                 $589          $639         -$50
Minneapolis, Minnesota             TCE                 $589          $639         -$50
New York City, New York           VITA                 $751          $598                     $153
New York City, New York            TCE                $1,504        $2,338       -$834
New York City, New York           VITA                $5,015         $598                   $4,417
Philadelphia, Pennsylvania         TCE                 $589          $639         -$50
Phoenix, Arizona                  VITA                 $589          $639         -$50
San Antonio, Texas                VITA                 $589          $639         -$50
San Antonio, Texas                VITA                 $589          $639         -$50
San Francisco, California         VITA                $1,959        $2,338       -$379
Seattle, Washington               VITA                 $589          $639         -$50
Seattle, Washington               VITA                $1,692        $2,338       -$646
Tulsa, Oklahoma                   VITA                 $589          $639         -$50
 Totals:                                                                       -$4,138      $4,575
Source: Anonymous visits performed by our auditors.




                                                                                            Page 23
                      Ensuring the Quality Assurance Processes Are Consistently
                          Followed Remains a Significant Challenge for the
                                          Volunteer Program



                                                                                      Appendix VII


          General Characteristics of Tax Year 2007 Tax
           Returns Prepared by the Volunteer Program                                          1




                                                                       Tax Return   Percentage
                Type of Tax Return                                      Volume       of Total

          U.S. Individual Income Tax Return (Form 1040)                 2,508,428        85.88%
          U.S. Individual Income Tax Return (Form 1040A)                  341,771        11.70%
          Income Tax Return for Single and Joint Filers With No
                                                                           60,787         2.08%
          Dependents (Form 1040EZ)
          U.S. Income Tax Return for Certain Nonresident Aliens
          With No Dependents                                                8,560         0.29%
          (Form 1040NR-EZ)
          U.S. Individual Income Tax Return (PC) (Form 1040PC)                601         0.02%
          U.S. Nonresident Alien Income Tax Return (Form 1040NR)              305         0.01%
          U.S. Self-Employment Tax Return – Virgin Islands, Guam,
                                                                              198        <0.01%
          American Samoa
          U.S. Self-Employment Tax Return – Puerto Rico
                                                                              104        <0.01%
          (Form 1040-PR)



         Refund Due/                  Dollar             Tax Return     Percentage of Tax Return
         Balance Due                  Totals              Volume                Volume

         Refund Due                  $2,005,362,648        1,632,776                     55.90%
         Balance Due                  $415,050,674           426,726                     14.61%
         Breakeven                               $0          861,252                     29.49%




1
    The IRS Volunteer Program includes the VITA and TCE Programs.
                                                                                                  Page 24
                      Ensuring the Quality Assurance Processes Are Consistently
                          Followed Remains a Significant Challenge for the
                                          Volunteer Program



                                                                        Tax Return       Percentage of
        Filing Status/Dependent Claims                                   Volume              Total

        Single                                                            1,888,496             64.66%
        Married Filing Jointly                                              695,070             23.80%
        Head of Household                                                   291,923              9.99%
        Married Filing Separately and Spouse Is Required to
                                                                              44,047             1.51%
        File
        Widow(er) With Dependent Child                                          1,095            0.04%
        Married Filing Separately and Spouse Is Not Required
                                                                                 123            <0.01%
        to File
        Tax Return Prepared With One or More Dependent
                                                                            464,087             15.89%
        Exemptions, Including Parents
        Tax Return Prepared With No Dependent Exemptions                  2,456,667             84.11%



                                                                  Tax Return               Dollar
         Credits Claimed                                           Volume                  Totals

         Earned Income Tax*                                           515,734           $657,233,158
         Child Tax*                                                   162,808           $151,577,221
         Additional Child Tax*                                        153,241           $139,291,822
         Retirement Savings Contributions*                            112,245            $17,879,299
         Education                                                     65,964            $44,016,616
         Child and Dependent Care*                                     32,851            $15,126,892
         Other (Adoption, Gas, and Health Coverage Tax)                   515              $740,995
         * = This credit was included in our test scenarios.

         Income                         Tax Return Volume                     Dollar Totals

         Average Income 2                     2,920,754                             $17,006

         Other Income 3                         134,280                       $325,552,030
       Source: IRS management information system containing all Tax Year 2007 tax return data.




2
 Average Income was determined using computer software to calculate the average total income of all taxpayers.
3
 Other Income is a line item on the Form 1040 series tax returns that is not reported on any tax schedules or
anywhere else on the tax returns.
                                                                                                        Page 25
     Ensuring the Quality Assurance Processes Are Consistently
         Followed Remains a Significant Challenge for the
                         Volunteer Program



                                                   Appendix VIII


Management’s Response to the Draft Report




                                                           Page 26
Ensuring the Quality Assurance Processes Are Consistently
    Followed Remains a Significant Challenge for the
                    Volunteer Program




                                                      Page 27
Ensuring the Quality Assurance Processes Are Consistently
    Followed Remains a Significant Challenge for the
                    Volunteer Program




                                                      Page 28
Ensuring the Quality Assurance Processes Are Consistently
    Followed Remains a Significant Challenge for the
                    Volunteer Program




                                                      Page 29
Ensuring the Quality Assurance Processes Are Consistently
    Followed Remains a Significant Challenge for the
                    Volunteer Program




                                                      Page 30
